audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grantsto the Pittsburg Police Department, California
GR-90-00-003
October 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services to the Pittsburg Police Department (PPD).  The purpose of the grants is to enhance community policing.  The PPD was awarded a total of $416,550 to hire 4 new police officers and redeploy the equivalent of 2.4 existing full-time officers from administrative duties to community policing.

We reviewed the PPD's compliance with eight essential grant conditions.  We found the PPD's budgeting practices, hiring, meeting the local match, preparing reimbursement requests, retention, implementation of community policing, and redeployment, and periodic status reporting to be acceptable 

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in
Appendix I.